            HEARING BEFORE THE
        SPECIAL COMMITTEE ON AGING
           UNITED STATES SENATE

“Tax-Related Identity Theft: An Epidemic Facing
           Seniors and Taxpayers”




                  Testimony of
        The Honorable J. Russell George
Treasury Inspector General for Tax Administration

                 April 10, 2013

                Washington, D.C.
                                    TESTIMONY OF
                         THE HONORABLE J. RUSSELL GEORGE
                 TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                                       before the
                             SPECIAL COMMITTEE ON AGING
                                UNITED STATES SENATE

             “Tax-Related Identity Theft: An Epidemic Facing Seniors and Taxpayers”

                                                    April 10, 2013

        Chairman Nelson, Ranking Member Collins, and Members of the Committee,
thank you for the invitation to provide testimony on the subject of identity theft and its
impact on the Internal Revenue Service (IRS) and taxpayers, including the targeting of
our Nation’s senior citizens for identity theft. The Treasury Inspector General for Tax
Administration (TIGTA) plays a critical role in providing taxpayers with assurance that
the approximately 92,500 IRS employees who collect over $2.1 trillion in tax revenue
each year, process over 147 million individual tax returns, and issue approximately
$333 billion in tax refunds, do so in an effective and efficient manner while minimizing
the risks of waste, fraud, and abuse.

        TIGTA has provided ongoing oversight and testimony on the issue of tax fraud-
related identity theft because of the rapidly growing nature of this tax crime and the
need for further improvement in the IRS’s handling of identity theft. Identity theft and
other fraud schemes targeting senior citizens are on the rise. These financial scams
have become so prevalent that they are being called the “crime of the 21st century.”1
Sweepstakes and lottery scams, e-mail and phishing scams, and investment scams are
among the top ten fraud schemes used by criminals to target seniors.2 Senior citizens
are most likely to have a “nest egg,” to own their home, and/or to have excellent credit –
all of which make them attractive to con artists.3 In addition, financial scams often go
unreported by senior citizens or can be difficult to prosecute, so they are considered a
“low-risk” crime.4


                                                 
 
1
  Top Ten Scams Targeting Seniors, National Council on Aging, http://www.ncoa.org/enhance-economic-
security/economic-security-Initiative/savvy-saving-seniors/top-10-scams-targeting.html (last visited Apr. 4,
2013).
2
  Id.
3
  Common Fraud Schemes, Fraud Target: Senior Citizens, Federal Bureau of Investigation,
http://www.fbi.gov/scams-safety/fraud/seniors (last visited Apr. 4, 2013).
4
  Top Ten Scams Targeting Seniors, National Council on Aging, http://www.ncoa.org/enhance-economic-
security/economic-security-Initiative/savvy-saving-seniors/top-10-scams-targeting.html (last visited Apr. 4,
2013).
                                                          1 
 
        Incidents of identity theft affecting tax administration have continued to rise since
Calendar Year (CY) 2011, when the IRS identified more than one million incidents of
identity theft. As of December 31, 2012, the IRS identified almost 1.8 million incidents
during CY 2012. This figure includes approximately 280,000 incidents in which
taxpayers contacted the IRS alleging that they were victims of identity theft,5 and more
than 1.5 million incidents in which the IRS detected potential identity theft.6 As a result
of the delay in the start of this year’s filing season, we are unable to determine the
extent of identity theft cases this year or compare trends with last year’s filing season;
however, it is highly likely that incidents of identity theft will show a continued increase
when the current filing season is concluded.

        Over the past year, my office has issued two reports7 on the subject of identity
theft. Identity theft affects the IRS and tax administration in two ways – with fraudulent
tax returns and misreporting of income. Our first report, issued May 3, 2012, addressed
the IRS’s efforts to assist victims of identity theft, while the second, issued July 19,
2012, dealt with the IRS’s efforts to detect and prevent the filing of fraudulent tax returns
by identity thieves. My comments today will focus on the results of those reports and on
the ongoing work we have underway to assess the IRS’s progress on detecting and
resolving identity theft issues related to tax administration.

        The IRS has described identity theft as the number one tax scam for 2013.8
Identity theft occurs when someone uses another taxpayer’s personal information, such
as name, Social Security number (SSN), or other identifying information, without
permission, to commit fraud or other crimes. In many cases, an identity thief uses a
legitimate taxpayer’s identity to fraudulently file a tax return and claim a refund.
Unfortunately, senior citizens are not immune from this crime. During our audit,9 we
identified over 76,000 tax returns for Tax Year (TY) 2010 filed using the identities of
senior citizens that had characteristics of an IRS-confirmed identity theft case. These
tax returns resulted in potentially fraudulent tax refunds totaling over $374 million. Our



                                                 
 
5
  Taxpayers can be affected by more than one incident of identity theft. The 280,000 incidents affected
233,365 taxpayers.
6
  These 1.5 million incidents affected 985,843 taxpayers.
7
  TIGTA, Ref. No. 2012-40-050, Most Taxpayers Whose Identities Have Been Stolen to Commit Refund
Fraud Do Not Receive Quality Customer Service (May 2012); TIGTA, Ref. No. 2012-42-080, There Are
Billions of Dollars in Undetected Tax Refund Fraud Resulting From Identity Theft (July 2012).
8
  IRS Press Release, IR-2013-33 (March 26, 2013), available at http://www.irs.gov/uac/Newsroom/IRS-
Releases-the-Dirty-Dozen-Tax-Scams-for-2013.
9
  TIGTA, Ref. No. 2012-42-080, There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting
From Identity Theft (July 2012).
                                                    2 
 
analysis of TY 2010 returns that we identified as involving identity theft showed that the
top five cities for these returns were located in Florida, Georgia, Michigan, and Texas.10

        In addition, the identities of senior citizens are targets for identity thieves because
many are not required to file a tax return. These individuals are often unaware that their
identities have been stolen to file fraudulent tax returns. Similarly, the IRS is often
unaware that the tax return is fraudulent unless the legitimate taxpayer files a tax return,
resulting in a duplicate filing. If these fraudulent refunds are not recovered, taxpayer
dollars will be lost.

        As we have reported, the total impact of identity theft on tax administration is
significantly greater than the amount the IRS detects and prevents, and the IRS is not
providing effective assistance to taxpayers who report that they have been victims of
identity theft. Although the IRS is continuing to make changes to its processes to
increase its ability to detect, prevent, and track fraudulent tax returns and improve
assistance to victims of identity theft, there is still work that needs to be done.

       One promising development occurred at the end of March 2013, when the IRS
announced it was expanding a program designed to help law enforcement obtain tax
return data for their investigations and prosecutions of specific cases of identity theft.
The IRS initiated this program to assist local law enforcement with arrests and
prosecutions related to identity theft. Under a pilot program, which was started in April
2012 in the State of Florida, State and local law enforcement officials who have
evidence of identity theft involving fraudulently filed tax returns were able, through a
written disclosure consent waiver from the victim, to obtain tax returns filed using the
victim’s SSN. The pilot was expanded in October 2012 to eight additional States.11
There was widespread use of this program. Under the pilot, more than 1,560 waiver
requests were received by the IRS from over 100 State and local law enforcement
agencies in the nine States participating in the pilot. On March 29, 2013, the pilot was
expanded to a permanent program that was effective for all 50 States and the District of
Columbia.

Detection and Prevention of Identity Theft

        Although it has found an increased number of identity theft incidents, the IRS is
still challenged in detecting and preventing them. In July 2012, TIGTA reported that the
impact of identity theft on tax administration is significantly greater than the amount the

                                                 
 
10
     Tampa, FL; Miami, FL; Atlanta, GA; Detroit, MI; and Houston, TX.
11
     Alabama, California, Georgia, New Jersey, New York, Oklahoma, Pennsylvania, and Texas.
                                                    3 
 
IRS detects and prevents.12 Using the characteristics of tax returns that the IRS
confirmed as involving identity theft, we analyzed TY 2010 tax returns processed during
the 2011 Filing Season and identified 1.5 million undetected tax returns with potentially
fraudulent tax refunds totaling approximately $5.2 billion. If not addressed, we estimate
that the IRS could issue approximately $21 billion in fraudulent tax refunds resulting
from identity theft over the next five years.

        The primary characteristic of tax returns filed by identity thieves is the reporting of
false income and withholding to generate a fraudulent tax refund. Without the falsely
reported income, many of the deductions and/or credits used to inflate the fraudulent tax
refund could not be claimed on the tax return. As I previously testified, many individuals
who are victims of identity theft may be unaware that their identity has been stolen and
used to file fraudulent tax returns. These individuals are typically those who are not
required to file a tax return. It is not until the legitimate taxpayer files a tax return
resulting in a duplicate filing under the same name and SSN that the taxpayer realizes
that he or she has become a victim of identity theft.

         When the identity thief files the fraudulent tax return, the IRS does not yet know
whether the victim’s identity will be used more than once. Instances of duplicate tax
returns cause the greatest burden to the legitimate taxpayer. Once the legitimate
taxpayer files his or her tax return, the duplicate tax return is identified and the refund is
held until the IRS can confirm the taxpayer’s identity. For TY 2010, we identified more
than 48,000 SSNs that were used multiple times, i.e., one or more potentially fraudulent
tax returns were associated with the multiple use of an SSN.13 We estimate that more
than $70 million in potentially fraudulent tax refunds were paid to identity thieves who
filed tax returns before the legitimate taxpayers filed theirs.14 This is in addition to the
$5.2 billion noted previously, which was related to taxpayers who do not appear to have
a filing requirement.
          
         Although the IRS is working toward finding ways to determine which tax returns
are legitimate, it could do more to prevent identity thieves from electronically filing (e-
filing) tax returns. Of the 1.5 million undetected tax returns TIGTA identified, almost 1.4
million (91 percent) were e-filed. Before a tax return can be submitted electronically, the
taxpayer must verify his or her identity with either the prior year’s tax return Self-Select
                                                 
 
12
   TIGTA, Ref. No. 2012-42-080, There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting
From Identity Theft (July 2012).
13
   This estimate includes only those tax returns filed on tax accounts that contain an Identity Theft
Indicator added on or before December 31, 2011. Identity theft indicator codes were developed to
centrally track identity theft incidents and are input to the affected taxpayer's account.
14
   This estimate is based only on the duplicate use of the primary SSN.
                                                    4 
 
Personal Identification Number (PIN) or Adjusted Gross Income. However, we
determined that this control can be circumvented.

       If the taxpayer does not remember the prior year’s Self-Select PIN or Adjusted
Gross Income, he or she can go to IRS.gov, the IRS’s public Internet website, to obtain
an Electronic Filing PIN by providing personal information that the IRS matches against
data on the prior year’s tax return filed by the taxpayer. In the alternative, a taxpayer
can call the IRS and follow automated prompts to receive an Electronic Filing PIN. For
the 2013 Filing Season, the IRS has required the taxpayer to provide additional
personally identifiable information. Nonetheless, it remains a challenge to authenticate
taxpayers who call or write to the IRS to request help with their tax account. The IRS
has not adopted industry practices of shared secrets, such as security challenge
questions, to authenticate taxpayers (e.g., mother’s maiden name or name of first pet).

        Access to third-party income and withholding information at the time tax returns
are processed is the single most important tool the IRS could use to detect and prevent
tax fraud-related identity theft resulting from the reporting of false income and
withholding. Third-party reporting information would enable the IRS to identify the
income as false and prevent the issuance of a fraudulent tax refund. However, most of
this information is not available until well after taxpayers begin filing their returns. 

        Another important tool that could immediately help the IRS prevent tax fraud-
related identity theft is the National Directory of New Hires.15 However, legislation is
needed to expand the IRS’s authority to access the National Directory of New Hires
wage information for use in identifying tax fraud. Currently, the IRS’s use of this
information is limited by law to just those tax returns that include a claim for the Earned
Income Tax Credit. The IRS included a request for expanded access to this information
in its annual budget submissions for Fiscal Years (FY) 2010, 2011, 2012, and has once
again included this request in its FY 2013 budget submission.

         Even with improved identification of tax returns that report false income and
withholding, verifying whether the returns are fraudulent will require additional
resources. Using IRS estimates, it would cost approximately $32 million to screen and
verify the approximately 1.5 million tax returns that we identified as not having third-
party information on income and withholding. However, the IRS can maximize the use
of its limited resources by reviewing tax returns with the highest risk for refund fraud.


                                                 
 
15
  A Department of Health and Human Services national database of wage and employment information
submitted by Federal agencies and State workforce agencies.
                                                    5 
 
       Without the necessary resources, it is unlikely that the IRS will be able to work
the entire inventory of potentially fraudulent tax returns it identifies. The IRS will only
select those tax returns for which it can verify the identity of the taxpayer and/or the
income based on available resources. If the IRS does not have the resources to work
the remainder of the potentially fraudulent tax returns it identifies, the refunds will be
issued. The net cost of not providing the necessary resources is substantial, given that
the potential revenue loss to the Federal Government of these tax fraud-related identity
theft cases is billions of dollars annually.

         As we reported in July 200816 and July 2012, the IRS is not in compliance with
direct-deposit regulations that require tax refunds to be deposited into an account only
in the name of the individual listed on the tax return. Direct deposit, which now includes
debit cards, provides the ability to receive fraudulent tax refunds quickly, without the
difficulty of having to negotiate a tax refund paper check. Of the approximately 1.5
million TY 2010 tax returns we identified, 1.2 million (82 percent) involved the use of
direct deposit to obtain tax refunds totaling approximately $4.5 billion. One bank
account received 590 direct deposits totaling over $900,000.

       To improve the IRS’s conformance with direct-deposit regulations, and to help
minimize fraud, TIGTA recommended that the IRS limit the number of tax refunds being
sent to the same direct-deposit account. Limiting the number of tax refunds that can be
deposited into the same account can minimize losses associated with fraud. While
such a limit does not ensure that all direct deposits are made in the name of the filer, it
does have the potential to limit the extent of fraud.

         We also recommended, and the IRS agreed, that the IRS should coordinate with
responsible Federal agencies and banking institutions to develop a process to ensure
that tax refunds issued via direct deposit, either to a bank account or to a debit card
account, are made only to an account in the taxpayer’s name. The IRS indicated that it
will initiate discussions with the Department of the Treasury Fiscal Service17 to revisit
this issue and reevaluate the feasibility of imposing such restrictions. Based on its
discussions with the Fiscal Service, the IRS will determine whether such restrictions can
be effectively implemented.



                                                 
 
16
   TIGTA, Ref. No. 2008-40-182, Processes Are Not Sufficient to Minimize Fraud and Ensure the
Accuracy of Tax Refund Direct Deposits (Sept. 2008).
17
   Two offices of the Department of the Treasury were merged in FY 2013: The Bureau of the Public
Debt and the Financial Management Service. The new office is Fiscal Service. The IRS discussed the
direct deposit issue with the former Financial Management Service.
                                                    6 
 
         As I mentioned earlier, the IRS has continued to make changes to its processes
to increase its ability to detect, prevent, and track fraudulent tax returns and improve
assistance to victims of identity theft. As of December 31, 2012, the IRS reports that
during CY 2012 it stopped the issuance of $12.1 billion in potentially fraudulent tax
refunds associated with 1.8 million tax returns classified as involving identity theft. This
represents a 96 percent increase in the number of fraudulent tax returns identified over
the same period last year. While the amount of fraudulent tax refunds the IRS detects
and prevents is substantial, it does not know how many identity thieves are filing
fictitious tax returns and how much revenue is being lost due to the issuance of
fraudulent tax refunds.

         In addition, the IRS continues to expand its efforts to identify fraudulent tax
returns and prevent the payment of tax refunds by processing all individual tax returns
through identity theft screening filters. These filters look for known characteristics of
identity theft cases to detect fraudulent tax returns before they are processed and
before any tax refunds are issued. For example, beginning in Processing Year 2012 the
filters use benefit and withholding information from the Social Security Administration
(SSA). This information is used to verify that Social Security benefits and related
withholding reported on tax returns match the information reported by the SSA. Overall,
this will help prevent the false reporting of Social Security benefits and withholding in an
attempt to obtain fraudulent refunds. We identified over 93,000 tax returns in TY 2010
which collectively resulted in the issuance of over $230 million in fraudulent refunds
involving the false reporting of Social Security benefits and withholding. The IRS
reports that it identified and confirmed identity theft on over 31,000 tax returns claiming
fraudulent Social Security benefits and withholding, and stopped approximately $169
million in fraudulent tax refunds in Processing Year 2012 using the information provided
by SSA. The IRS advised us that for the 2013 Filing Season, the filters have been
refined and incorporate criteria based on the latest characteristics of confirmed identity
theft tax returns.

         In yet another example, the IRS has incorporated an age analysis in its identity
theft filters which should help to prevent additional tax fraud-related identity theft. Our
analysis of questionable TY 2010 tax returns that appeared to have been filed by an
identity thief showed that 2,274 tax returns filed by children under the age of 14 had
received approximately $4 million in refunds. For one refundable tax credit for higher
education expenses, we identified 109,618 taxpayers as of May 2, 2012, who received
the refundable tax credit totaling more than $159 million for Tax Year 2011. The




                                              7 
 
individuals receiving the credit were of an age that is unlikely to be enrolled in a four-
year college degree program.18

       Tax returns detected by these new filters are held during processing until the IRS
can verify the taxpayers’ identity. IRS employees attempt to contact these individuals
and request information to verify that the individual filing the tax return is the legitimate
taxpayer. If the IRS cannot confirm the filer’s identity, it suspends processing of the tax
return to prevent the issuance of a fraudulent tax refund. During our current audit, the
IRS advised us that the identity theft filters identified over 324,000 tax returns and
enabled the IRS to stop the issuance of approximately $2.2 billion in fraudulent tax
refunds in Calendar Year 2012.

       In January 2012, the IRS created the Identity Theft Clearinghouse. The
Clearinghouse was created to accept tax fraud-related identity theft leads from the IRS’s
Criminal Investigation field offices. The Clearinghouse performs research, develops
each lead for the field offices, and provides support for ongoing criminal investigations
involving identity theft. As of December 31, 2012, the Clearinghouse had received over
2,400 identity theft leads for development. These leads have resulted in the
development of 329 identity theft investigations.

        The IRS began a pilot program in Processing Year 2011 which makes use of a
unique identity theft indicator to lock19 taxpayers’ accounts for which the IRS Master File
and SSA data show a date of death. To date, the IRS has locked over 9.9 million tax
accounts. These locks will systemically void tax returns filed on an individual’s account
after he or she is reported as deceased. For the 2013 Filing Season, the IRS indicates
that for e-filed tax returns using the SSN of a deceased individual, the return will be
rejected from processing. For paper tax returns, the IRS has prevented the issuance of
over $487,000 in fraudulent tax refunds as a result of this program. The IRS does not
yet have similar information for e-filed tax returns; however, we are reviewing this in our
current audit.

      To measure the success of the actions that the IRS took to combat identity theft
in CY 2012, we are currently performing the same analysis we performed for TY 2010



                                                 
 
18
   TIGTA, Ref. No. 2012-40-119, The Majority of Individual Tax Returns Were Processed Timely, but Not
All Tax Credits Were Processed Correctly During the 2012 Filing Season (September 2012).
19
   A specific transaction code used to prevent a taxpayer’s identification number (TIN), either a Social
Security Number or Individual Taxpayer Identification Number, from being used as the primary or
secondary TIN on a current or subsequent year Federal income tax return.
                                                    8 
 
tax returns.20 Using the characteristics of tax returns that the IRS confirmed as
involving identity theft, we are analyzing TY 2011 tax returns processed during the 2012
Filing Season to determine whether we can identify any undetected tax returns with
potentially fraudulent refunds resulting from identity theft.

IRS Assistance to Victims of Identity Theft

       In May 2012, we reported that the IRS is not effectively providing assistance to
taxpayers who report that they have been victims of identity theft, resulting in increased
burden for those victims.21 Moreover, identity theft cases can take more than one year
to resolve, and communication between the IRS and victims is limited and confusing.
Victims are also asked multiple times to substantiate their identities. Furthermore,
during the 2012 Filing Season, identity theft tax returns were not prioritized during the
standard tax return filing process. We are currently evaluating the IRS’s corrective
actions to our May 2012 audit report.22

        The growth of identity theft poses a considerable challenge to tax administration.
In CY 2011, the IRS reported that over 641,000 taxpayers were victims of identity theft.
This figure includes taxpayers who contacted the IRS alleging that they were victims. In
CY 2012, the IRS identified an additional 1.2 million of these taxpayers.

       In FY 2012, the IRS dedicated 400 additional employees to the Accounts
Management function23 to work identity theft cases. As a result, the function now has
approximately 2,000 employees working these cases. However, its inventory of identity
theft cases has grown almost 50 percent from FY 2011 to 2012. As of March 9, 2013,
the Accounts Management function reported that it had over 249,000 identity theft
cases in its inventory.

       The IRS estimated that its inventory of more than 228,000 identity theft cases
that had been carried over from FY 2010 to 2011 would require 287 full-time employees




                                                 
 
20
   TIGTA, Audit No. 201140044, Effectiveness of the Internal Revenue Service’s Efforts to Identify and
Prevent Fraudulent Tax Refunds Resulting from Identity Theft (Follow-Up), report planned for April 2013.
21
   TIGTA, Ref. No. 2012-40-050, Most Taxpayers Whose Identities Have Been Stolen to Commit Refund
Fraud Do Not Receive Quality Customer Service (May 2012).
22
   TIGTA, Audit No. 201240041, Effectiveness of Assistance Provided to Victims of Identity Theft (Follow-
Up), report planned for September 2013.
23
   The function that works the majority of identity theft cases involving individual duplicate tax returns.
                                                     9 
 
to resolve.24 This inventory did not include 500,000 cases that were in the Duplicate
Filing inventory,25 many of which were identity theft cases.

       Most identity theft cases are complex and can present considerable challenges
throughout the resolution process. For example, it can be difficult to determine who the
legitimate taxpayer is or if the case is actually a case of identity theft. Taxpayers
sometimes transpose digits in SSNs, but do not respond to IRS requests for information
to resolve the case. As a result, the IRS may not be able to determine who the
legitimate taxpayer is. With other cases we have reviewed, taxpayers claimed to be
victims of identity theft after the IRS had questioned deductions or credits or proposed
examination adjustments. There have also been instances in which the SSA has issued
the same SSN to more than one taxpayer.26

        Resources have not been sufficient to work identity theft cases dealing with
refund fraud and continue to be a concern. IRS employees who work the majority of
identity theft cases are telephone assistors who also respond to taxpayers’ calls to the
IRS’s toll-free telephone lines. TIGTA is concerned that demanding telephone
schedules and a large identity theft inventory make it difficult for assistors to prioritize
identity theft cases.

       Furthermore, telephone assistors are not examiners and are not trained to
conduct examinations, which require skills and tools beyond those possessed by the
assistors. Instead, assistors are trained to communicate with taxpayers and to know
the tax laws and related IRS operational procedures. We recommended that the IRS
provide additional training for assistors, to include training on the importance of
documenting case actions and histories.

      The IRS responded that it has provided improved training to all IRS employees
who work identity theft cases. However, as of November 2012, interviews with more
than 20 assistors showed that many believed the training was not adequate and that the
constant revision of new procedures is creating confusion for the assistor and the
taxpayer alike. The IRS has implemented new tools and job aids for the assistors to
use when attempting to resolve identity theft cases, such as the Identity Theft Case

                                                 
 
24
   A full-time employee working 40 hours per week for 52 weeks.
25
   A duplicate tax return condition occurs when a tax return posts to a taxpayer’s account that already
contains a tax return. The duplicate tax return becomes part of an inventory of duplicate tax return cases
that require an IRS employee to work and resolve.
26
   Prior to 1961, only a fraction of SSNs were manually screened to determine if an SSN was previously
assigned. Thus, issuing duplicate SSNs was possible. Today, automated systems with sophisticated
matching routines screen for previously issued SSNs.
                                                    10 
 
Building Guide and the Identity Theft Tracking Indicator Assistant tool. Some assistors
stated that they believe these tools have been helpful when working identity theft cases.
TIGTA is currently evaluating the actions the IRS has taken in response to our concerns
with the training provided to assistors.27

        The management information system that telephone assistors use to control and
work cases can add to the taxpayer’s burden. For instance, the IRS may open multiple
cases for the same victim, and multiple assistors may work that same victim’s identity
theft issue. A review of 17 taxpayers’ identity theft cases showed that 58 different cases
involving those taxpayers had been opened, and multiple assistors had worked their
cases. Our audit also found that victims become further frustrated when they are asked
numerous times to prove their identities, even though they have previously followed IRS
instructions and sent in Identity Theft Affidavits28 and copies of their identification with
their tax returns.

         We also found in May 201229 that the IRS sends the victims duplicate letters at
different times, wasting agency resources and possibly confusing the victims. For
example, the IRS sends each taxpayer two different letters advising that the taxpayer’s
identity theft case has been resolved. Assistors working an identity theft case send one
letter to the taxpayer when they have completed actions taken on the case. A second
letter is systemically generated two to 12 weeks later advising the taxpayer again that
his or her case has been resolved. Neither letter advises when the taxpayer should
expect to receive his or her tax refund.

       In addition, identity theft case histories are so limited that it is extremely difficult
to determine what action has been taken on a case, such as whether research has
been completed to determine which individual is the legitimate taxpayer. More
specifically, case histories do not note whether the assistor researched addresses, filing
or employment histories, etc., for the individuals associated with the cases. This
increases the need to spend extra time on these cases if the case is assigned to
another assistor and he or she has to repeat the research previously conducted.

      When our auditors reviewed a sample of cases, they could not determine if some
cases had been resolved or why those cases were still open. In most cases, auditors

                                                 
 
27
   TIGTA, Audit No. 201240041, Effectiveness of Assistance Provided to Victims of Identity Theft (Follow-
Up), report planned for August 2013.
28
   IRS Form 14039, Identity Theft Affidavit.
29
   TIGTA, Ref. No. 2012-40-050, Most Taxpayers Whose Identities Have Been Stolen to Commit Refund
Fraud Do Not Receive Quality Customer Service (May 2012).
                                                    11 
 
had to reconstruct the cases to determine if all actions had been appropriately taken to
resolve them.

        Currently, victims are not notified when the IRS receives their tax returns and
affidavits reporting suspected identity theft. We recommended that the IRS ensure that
taxpayers are notified when the IRS has received their identifying documents and/or it
has opened their identity theft cases. The IRS also needs to analyze the letters sent to
taxpayers regarding identity theft to ensure that those letters are relevant, provide
sufficient information, and are consistent, clear, and complete.

       The IRS agreed with these recommendations and began implementing new
procedures to notify taxpayers when their documentation is received. The IRS is also
reviewing its suite of identity theft letters to determine if the information contained
therein is accurate and applicable to the taxpayer’s identity theft circumstance.
However, these corrective actions are not expected to be fully implemented until
September 2013.

       Taxpayers could also be further burdened if the address on the tax return filed by
the identity thief is false. If the identity thief has changed the address on the tax return,
the IRS does not know that the address change is inappropriate and will update its
account record for the legitimate taxpayer. For example, many taxpayers do not notify
the IRS when they move, but just use their new/current address when they file their tax
returns. When the IRS processes a tax return with an address that is different from the
one that it has on file, it systemically updates the taxpayer’s account with the new
address. It does not notify the taxpayer that his or her account has been changed with
the new address.

        In such cases, while the IRS is in the process of resolving an identity theft case,
the identity thief’s address becomes the address on the taxpayer’s record. Any IRS
correspondence or notices unrelated to the identity theft case will be sent to the most
recent address on record. As a result, the legitimate taxpayer (the identity theft victim)
will be unaware that the IRS is trying to contact him or her.

        This situation can also create disclosure issues. For example, if the legitimate
taxpayer’s prior-year tax return has been selected for an examination, the examination
notice will be sent to the address of record – the address the identity thief used on the
fraudulent tax return. The identity theft victim is then at risk that his or her personal and
tax information will be disclosed to an unauthorized third party (whoever resides at that
address). In response to our report, the IRS stated that in January 2012 it expanded its
identity theft indicator codes that annotate the taxpayer’s account when there is a claim

                                             12 
 
of identity theft and will explore leveraging these new indicators to suspend certain
correspondence. The IRS’s corrective actions are not expected to be fully implemented
until September 2013.

       The IRS has taken steps in FY 2012 to improve assistance for taxpayers who
learn that another taxpayer has filed a tax return using his or her identity. For example,
the IRS reorganized to establish an Identity Theft Program Specialized Group within
each of the business units and/or functions where employees are assigned specifically
to work the identity theft portion of the case. It has also revised processes to shorten
the time it takes the IRS to work identity theft cases, and has refined codes to better
detect and track identity theft workloads.

        The IRS reported it has updated tax return processing procedures for the 2013
Filing Season to include a special processing code that recognizes the presence of
identity theft documentation on a paper-filed tax return. This will allow certain identity
theft victims’ tax returns to be forwarded and assigned to an assistor, rather than
continuing through the standard duplicate tax return procedures. This should
significantly reduce the time a taxpayer must wait to have his or her identity theft case
resolved. We are reviewing this process as part of our ongoing audit.

        To further assist victims in the filing of their tax returns, the IRS began issuing
Identity Protection Personal Identification Numbers (IP PIN) in Fiscal Year 2011 to these
individuals. The IP PIN will indicate that the taxpayer has previously provided the IRS
with information that validates his or her identity and that the IRS is satisfied that the
taxpayer is the valid holder of the SSN. Tax returns that are filed on accounts with an
IP PIN that has been correctly entered at the time of filing will be processed as the valid
tax return using standard processing procedures, including issuing any refunds, if
applicable. A new IP PIN will be issued each year before the start of the new filing
season, for as long as the taxpayer remains at risk of identity theft. For the 2012 Filing
Season, the IRS sent 252,000 individuals an IP PIN. For the 2013 Filing Season, the
IRS reports that it issued 772,000 IP PINs.

        Finally, in January 2012, the IRS established a Taxpayer Protection Program to
manage work arising from the identity theft indicators and filters used to detect tax
returns affected by identity theft – both to stop the identity thief’s tax return from being
processed and to ensure that the legitimate taxpayer’s tax return is processed.
However, during the 2012 Filing Season, taxpayers found it difficult to reach employees
in this program. The program received approximately 200,000 calls during FY 2012, but
was only able to answer about 73,000. The average wait time for taxpayers was 33



                                             13 
 
minutes. For the 2013 Filing Season, the IRS increased the number of employees
answering this program’s telephone line from 10 to more than 200 employees.

       We are currently evaluating whether the IRS is effectively implementing the
corrective actions in response to recommendations made in our prior report to improve
assistance to victims of identity theft.30 As of November 2012, our preliminary review of
16 identity theft cases worked by the Accounts Management function shows that for
eight of the 16 cases, the IRS’s processes prevented refunds from being issued to the
apparent identity thieves.

Criminal Investigations of Identity Theft

       Not only does identity theft have a negative impact on the economy, but the
damage it causes to its victims can be personally, professionally, and financially
devastating. When individuals steal identities and file fraudulent tax returns to obtain
fraudulent refunds before the legitimate taxpayers file, the crime is simple tax fraud,
which falls within the programmatic responsibility of IRS Criminal Investigation. TIGTA’s
Office of Investigations focuses its limited resources on investigating identity theft that
has any type of IRS employee involvement, the misuse of client information by tax
preparers, or the impersonation of the IRS through phishing schemes31 and other
means.

        IRS employees are entrusted with the sensitive personal and financial
information of taxpayers. Using this information to perpetrate a criminal scheme for
personal gain negatively impacts our Nation’s voluntary tax system and generates
widespread distrust of the IRS. TIGTA aggressively investigates IRS employees
involved in identity theft crimes. When the Office of Investigations completes an identity
theft investigation, it is referred to the Department of Justice for prosecution.

       For example, a former IRS employee was arrested after being charged by a
Federal grand jury on June 26, 2012, for aggravated identity theft, mail fraud,
unauthorized inspection of tax returns and return information, and unauthorized
disclosure of tax returns and return information. She subsequently pled guilty to those


                                                 
 
30
   TIGTA, Audit No. 201240041, Effectiveness of Assistance Provided to Victims of Identity Theft (Follow-
Up), report planned for June 2013.
31
   Phishing is an attempt by an individual or group to solicit personal and financial information from
unsuspecting users in an electronic communication by masquerading as trustworthy entities such as
government agencies, popular social web sites, auction sites, online payment processors, or information
technology administrators.
                                                    14 
 
charges on August 14, 2012, and was sentenced on March 28, 2013, to 28 months of
imprisonment with three years of supervised release.32

        TIGTA also investigated a tax preparer who stole the personal identifiers of
several individuals and unlawfully disclosed the information to others to fraudulently
obtain tax refunds. According to the indictment, the subject of the investigation worked
as a tax preparer from January 2002 to June 2008. In 2010, he used the personal
identifiers of other individuals to file false income tax returns and obtain refunds from the
IRS. The preparer obtained most of the personal identifiers in the course of his prior
employment as a tax preparer and from other employment positions he held. He
disclosed this information to co-conspirators so they could also file false income tax
returns and obtain refunds from the IRS. The subject and his co-conspirators ultimately
defrauded or attempted to defraud the IRS out of at least $560,000 in tax refunds.33

        Identity thieves may also commit identity theft by impersonating IRS employees
or misusing the IRS seal to induce unsuspecting taxpayers to disclose their personal
identifiers and financial information. One such criminal posed as an IRS “Audit Group
Representative” and, according to the indictment, sent letters to various employers
demanding that they send him the names, contact information, dates of birth, and SSNs
of their employees. He then prepared and filed false Federal tax returns with the IRS in
the names of various such employees without their knowledge or consent. The tax
returns contained W-2 information, such as income and withholding, that was falsely
and fraudulently inflated. The subject of the investigation used the refunds to purchase
personal items. The subject pled guilty to false impersonation of an officer and
employee of the United States; identity theft; subscribing to false and fraudulent U.S.
individual income tax returns; and false, fictitious, or fraudulent claims. He was
sentenced to 41 months of imprisonment and three years of supervised release. He
was also ordered to pay $8,716 in restitution.34

        Finally, TIGTA investigated a phishing scheme in which several individuals were
deceived into divulging their personal identifiers and banking information to identity
thieves who then defrauded them of over $1 million. The subject and his co-
conspirators operated a scheme to defraud numerous individuals through Internet
solicitations, stealing more than $1 million and the identities of those individuals. The
subject of the investigation was sentenced to a total of 30 months of imprisonment and
                                                 
 
32
   E.D. Pa. Arrest Warrant executed July 5, 2012; E.D. Pa. Crim. Indict. filed June 26, 2012; E.D. Pa.
Crim. Docket dated Jan. 22, 2013.
33
   S.D. Cal. Superseding Indict. filed June 19, 2012.
34
   S.D.N.Y. Crim. Indict. filed Jan. 25, 2012; S.D.N.Y. Minute Entry filed July 11, 2012; S.D.N.Y. Judgment
filed March 25, 2013.
                                                    15 
 
five years of supervised release for Aggravated Identity Theft and Conspiracy to
Commit Wire Fraud. He was also ordered to pay $1,741,822 restitution to his victims.35

       As I stated earlier, identity theft and other fraud schemes targeting senior citizens
are on the rise. Sweepstakes and lottery scams, e-mail and phishing scams, and
investment scams are among the top ten fraud schemes used by criminals to target
seniors.36

        While phishing schemes may vary in their technical complexity, many share a
common trait: They involve computers located outside the United States. Despite the
significant investigative challenge this poses, TIGTA has been successful in working
with law enforcement personnel in foreign countries to identify the perpetrators and
obtain prosecutions.

        TIGTA’s Office of Investigations investigated an individual who, along with his co-
conspirators, engaged in a fraud scheme that specifically targeted senior citizens. As
part of the scheme, a co-conspirator would send e-mails to victims representing that he
was an attorney or foreign government official who was responsible for distributing an
inheritance. The e-mails sent to the unsuspecting victims falsely informed them that
they owed additional taxes to the IRS, or had inherited millions of dollars but needed to
pay processing fees to release the funds. When the victims responded to the e-mails,
the subject of the investigation, or one of his co-conspirators, contacted them by
telephone and e-mail pretending to be someone who could assist them in obtaining the
promised inheritance. The victims were led to believe that these contacts were from
legitimate business people, and were deceived into paying fees in advance of receiving
the inheritance. However, the funds were never used to pay any fees, nor were any
inheritance payments made to the victims. The subject of this investigation pled guilty
to an indictment charging him with 15 counts of wire fraud and is awaiting sentencing.37

        In addition, in February 2013, the IRS announced the results of a nationwide
effort with the Department of Justice and local U.S. Attorneys offices targeting identity
theft suspects in 32 States and Puerto Rico, which involved 215 cities and surrounding

                                                 
 
35
   E.D.N.Y. Response to Defendant’s Sentencing Letter filed Dec. 19, 2011; E.D.N.Y. Judgment filed Aug.
9, 2012.
36
   Top Ten Scams Targeting Seniors, National Council on Aging, http://www.ncoa.org/enhance-economic-
security/economic-security-Initiative/savvy-saving-seniors/top-10-scams-targeting.html (last visited Apr. 4,
2013).
37
   C.D. Cal. Opposition to Defendant’s Ex Parte Application to Continuance of Trial Date filed June 6,
2012; C.D. Cal. Indict. filed Oct. 21, 2009; C.D. Cal. Crim. Complaint filed Aug. 3, 2009; C.D. Cal. Crim.
Minutes Change of Plea filed July 31, 2012.
                                                    16 
 
areas. This joint effort involved 734 enforcement actions related to identity theft and
refund fraud, including indictments, informations, complaints, and arrests.

       In conclusion, the IRS has undertaken important steps and initiatives to prevent
the occurrence of identity theft and associated tax fraud. It has made some progress in
addressing the rapidly growing challenge of identity theft. Nevertheless, we at TIGTA
remain concerned about the ever-increasing growth of identity theft and its impact on
victims of identity theft and on the Nation’s system of tax administration.
Notwithstanding the current budgetary challenges which will result in reduced audits
and investigations, we plan to provide continuing audit coverage of the IRS’s efforts to
prevent tax fraud-related identity theft and provide effective assistance to those
taxpayers who have been victimized. In addition, we will continue to conduct vigorous
criminal investigations of identity theft violations involving IRS employees, tax return
preparers, and individuals impersonating the IRS.

       Chairman Nelson, Ranking Member Collins, and Members of the Committee,
thank you for the opportunity to update you on our work on this critical tax administration
issue and to share my views.




                                            17 
 
                         J. Russell George
                         Treasury Inspector General for Tax
                         Administration
                         Following his nomination by President George W. Bush, the
                         United States Senate confirmed J. Russell George in
                         November 2004, as the Treasury Inspector General for Tax
                         Administration. Prior to assuming this role, Mr. George served
                         as the Inspector General of the Corporation for National and
                         Community Service, having been nominated to that position by
                         President Bush and confirmed by the Senate in 2002.

A native of New York City, where he attended public schools, including Brooklyn
Technical High School, Mr. George received his Bachelor of Arts degree from Howard
University in Washington, DC, and his Doctorate of Jurisprudence from Harvard
University's School of Law in Cambridge, MA. After receiving his law degree, he
returned to New York and served as a prosecutor in the Queens County District
Attorney's Office.

Following his work as a prosecutor, Mr. George joined the Counsel's Office in the White
House Office of Management and Budget where he was Assistant General Counsel. In
that capacity, he provided legal guidance on issues concerning presidential and
executive branch authority. He was next invited to join the White House Staff as the
Associate Director for Policy in the Office of National Service. It was there that he
implemented the legislation establishing the Commission for National and Community
Service, the precursor to the Corporation for National and Community Service. He then
returned to New York and practiced law at Kramer, Levin, Naftalis, Nessen, Kamin &
Frankel.

In 1995, Mr. George returned to Washington and joined the staff of the Committee on
Government Reform and Oversight and served as the Staff Director and Chief Counsel
of the Government Management, Information and Technology subcommittee (later
renamed the Subcommittee on Government Efficiency, Financial Management and
Intergovernmental Relations), chaired by Representative Stephen Horn. There he
directed a staff that conducted over 200 hearings on legislative and oversight issues
pertaining to Federal Government management practices, including procurement
policies, the disposition of government-controlled information, the performance of chief
financial officers and inspectors general, and the Government's use of technology. He
continued in that position until his appointment by President Bush in 2002.




                                           18 
 
In addition to his duties as the Inspector General for Tax Administration, Mr. George
serves as a member of the Recovery Accountability and Transparency Board, a non-
partisan, non-political agency created by the American Recovery and Reinvestment Act
of 2009 to provide unprecedented transparency and to detect and prevent fraud, waste,
and mismanagement of Recovery funds. There, he serves as chairman of the
Recovery.gov committee, which oversees the dissemination of accurate and timely data
about Recovery funds.

Mr. George also serves as a member of the Integrity Committee of the Council of
Inspectors General for Integrity and Efficiency (CIGIE). CIGIE is an independent entity
within the executive branch statutorily established by the Inspector General Act, as
amended, to address integrity, economy, and effectiveness issues that transcend
individual Government agencies; and increase the professionalism and effectiveness of
personnel by developing policies, standards, and approaches to aid in the
establishment of a well-trained and highly skilled workforce in the offices of the
Inspectors General. The CIGIE Integrity committee serves as an independent review
and investigative mechanism for allegations of wrongdoing brought against Inspectors
General.




                                          19 
 
